Report No. D-2010-081                August 27, 2010




              Army Use of Time-and-Materials
                Contracts in Southwest Asia
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
CECOM                         Communications and Electronics Command
CONUS                         Continental United States
COR                           Contracting Officer’s Representative
COTR                          Contracting Officer’s Technical Representative
CSC                           Computer Sciences Corporation
D&F                           Determination and Findings
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
GSA                           General Services Administration
J&A                           Justification and Approval
OCONUS                        Outside the Continental United States
QASP                          Quality Assurance Surveillance Plan
RDECOM                        Research Development and Engineering Command
REF                           Rapid Equipping Force
T&M                           Time-and-Materials
TSMO                          Threat Systems Management Office
WSMR                          White Sands Missile Range
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                 400 ARMY NAVY DRIVE
                            ARLINGTON , VIRG INIA 22202- 4704




                                                                          August 27, 2010

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY
              COMMANDER, ARMY MATERIEL COMMAND
              EXECUTIVE DIRECTOR, ARMY CONTRACTING
                 COMMAND
              EXECUTIVE DIRECTOR, ARMY COMMUNICATIONS
                 AND ELECTRONICS COMMAND ACQUISITION
                 CENTER
              DIRECTOR OF CONTRACTING, WHITE SANDS MISSILE
                 RANGE

SUBJECT: Almy Use of Time-and-Matelia Is Contracts in Southwest Asia
         (RepOlt No. 0-2010-081)

We are providing this report for review and comment. We considered comments from
the Army Materiel Command, the Almy Contracting Command, the Communications
and Electronics Command Acquisition Center, and the Mission Installation and
Contracting Command when prepating the final repOlt.

DOD Directive 7650.3 requires that issues be resolved promptly. Some of the comments
received were only pa11ially responsive. We request additional comments from the Almy
Contracting Command and the Communications and Elech'onics Command Acquisition
Center by September 27, 2010. See the Recommendations Table on page ii of this rep0l1.

Ifpossible, send management comments in electronic fOlmat (Adobe Acrobat file only)
to audacm@dodig.mil. Copies of management comments must have the actual signature
of the authorizing official for your organization. We calmot accept the / Signed / symbol
in place of the actual signature. If you anange to send classified comments
electronically, you must send them over the SECRET Intemet Protocol Router Network
(SIPRNET).

We appreciate the comtesies extended to the staff. Please direct questions to me rit (703)
604-920 I (DSN 664-920 I).



                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Conh'act Management
Report No. D-2010-081 (Project No. D2009-D000CF-0095.000)                              August 27, 2010


               Results in Brief: Army Use of Time-and-
               Materials Contracts in Southwest Asia
                                                               justifications, or price reasonableness
What We Did                                                    determinations,
We reviewed Army time-and-materials (T&M)                     request that the Defense Contract Audit
contracts and task orders for Southwest Asia to                Agency perform reviews on the
determine if they were awarded and                             contracts and task orders reviewed in
administered in accordance with acquisition                    this report, and
regulations. We reviewed 18 contracts and task                take corrective action to ensure that
orders with a total value of $605,021,129.                     contracting officers develop plans for
                                                               sufficient contract oversight of T&M
                                                               contracts in Southwest Asia. Contract
What We Found                                                  oversight officials should be located at
Army contracting and DOD program officials                     the place of contractor performance to
did not properly award and administer the                      ensure effective surveillance.
18 T&M contracts and task orders for work
performed in Southwest Asia. Contracting and            The Director of Contracting of White Sands
program officials:                                      Missile Range and the Executive Director of the
     awarded contracts and task orders with            Army Communications and Electronics
        invalid sole-source justifications or           Command Acquisition Center, should review
        unfair competition (10 of 18),                  the contracts and request refunds, where
     did not negotiate reasonable prices               appropriate, from the contractors.
        (17 of 18), and
     did not justify their use of the T&M              Management Comments and
        contract type (12 of 18).
                                                        Our Response
These conditions occurred because contracting           The Army Materiel Command reviewed and
and program officials ignored acquisition               endorsed its subordinate commands’ comments.
regulations. In addition, contracting and               The Army Contracting Command provided
program officials did not perform adequate              comments responding to all recommendations.
contractor surveillance for the 18 contracts and        These comments incorporated comments from
task orders because of inadequate organization          the Mission and Installation Contracting
and planning by the Army officials responsible          Command and the Communications and
for contractor oversight. We identified potential       Electronics Command Acquisition Center.
monetary benefits for the Government of
$3,688,338.                                             The comments generally agreed with the
                                                        recommendations and were responsive.
What We Recommend                                       However, the Army Contracting Command only
                                                        partially agreed with the recommendations
The Executive Director of the Army Contracting          regarding contract oversight, and the
Command should                                          Communications and Electronics Command
    conduct a review and initiate appropriate          Acquisition Center only partially agreed with
      administrative action on the contracting          the recommendation regarding refunds. We
      officers responsible for awarding                 request additional comments by September 27,
      contracts and task orders without                 2010. Please see the recommendations table on
      adequate competition, sole-source                 the back of this page.

                                                    i
Report No. D-2010-081 (Project No. D2009-D000CF-0095.000)            August 27, 2010

Recommendations Table

Management                       Recommendations            No Additional Comments
                                 Requiring Comment          Required
Executive Director, Army         B.1                        A.1, A.2
Contracting Command
Executive Director, Army         B.3
Communications and Electronics
Command Acquisition Center
Director of Contracting, White                              B.2
Sands Missile Range (Mission
and Installation Contracting
Command)

Please provide comments by September 27, 2010.




                                          ii
Table of Contents

Introduction                                                    1

      Objectives                                               1
      Background                                               1
      Review of Internal Controls                              2

Finding A. Contract and Task Order Award Procedures             4

      Recommendations, Management Comments, and Our Response   17

Finding B. Contract Oversight                                  19

      Recommendations, Management Comments, and Our Response   29

Appendices

      A. Scope and Methodology                                 32
      B. Prior Coverage                                        35
      C. Contracting Issues Identified                         38

Management Comments

      Army Materiel Command                                    40
      Army Contracting Command                                 41
      Mission and Installation Contracting Command             45
      Communications and Electronics Command                   47
Introduction
Objectives
Our audit objective was to determine whether time-and-materials (T&M) contracts and
task orders for Southwest Asia were awarded and administered in accordance with the
Federal Acquisition Regulation (FAR) and Defense Federal Acquisition Regulation
Supplement (DFARS). We reviewed whether contracting officials justified their use of
the T&M contract type, whether they properly competed the contracts, and whether they
negotiated fair and reasonable prices. Additionally, we reviewed whether contracting and
program officials performed sufficient contract administration and oversight after the
contracts were awarded. See Appendix A for a discussion of the scope and methodology.
See Appendix B for prior coverage related to the objectives.

We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 842, “Investigation of Waste, Fraud,
and Abuse in Wartime Contracts and Contracting Processes in Iraq and Afghanistan,”
January 28, 2008. Section 842 requires “thorough audits to identify potential waste,
fraud, and abuse in the performance of (1) Department of Defense contracts,
subcontracts, and task and delivery orders for the logistical support of coalition forces in
Iraq and Afghanistan; and (2) Federal agency contracts, subcontracts, and task and
delivery orders for the performance of security and reconstruction functions in Iraq and
Afghanistan.” We reviewed 18 contract actions that required contractors to perform
work in Iraq or Afghanistan.

Background
This is the first of two reports addressing DOD T&M contracts for work performed in
Southwest Asia. This report addresses whether T&M contracts awarded by Army
Communications and Electronics Command (CECOM) Acquisition Center, Army
Research Development and Engineering Command (RDECOM) Acquisition Center, and
White Sands Missile Range (WSMR) Army Contracting Activity were awarded and
administered in accordance with acquisition regulations. The other report discussed
whether Architect and Engineering T&M contracts awarded by the Air Force Center for
Engineering and the Environment were awarded and administered in accordance with
regulations.

WSMR is an organization within the Mission and Installation Contracting Command.
The Mission and Installation Contracting Command, CECOM, and RDECOM are all
activities under the Army Contracting Command. The Army Contracting Command is a
major subordinate command of the Army Materiel Command.

T&M contracts are the least favorable and most risky contract type because contractor
profit is built into its labor rates and, therefore, there is no incentive for the contractor to
control costs or work efficiently. FAR 16.601, “Time-and-materials contracts,” states
that a T&M contract may be used only when it is not possible at the time of placing the

                                                1
contract to accurately estimate the extent or duration of the work or to anticipate costs
with any reasonable degree of confidence. FAR 16.601 also requires that Government
officials perform significant surveillance in order to ensure that the contractor works
efficiently and that the Government reimburses the contractor only for legitimately
incurred costs.

Contracting officials should also prepare a Determination and Findings (D&F) document
containing a sufficient justification that no other contract type is suitable.
DFARS 216.601, “Time-and-materials contracts,” stipulates that the D&F should
describe the actions planned to limit future T&M acquisitions.

We reviewed 18 contracts and task orders that were awarded on behalf of 4 Army
customers. Of the 18 awards, 12 were made on behalf of the Rapid Equipping Force
(REF). In 2003, the Vice Chief of Staff of the Army designated REF the responsibility to
work directly with operational commanders to find promising materiel solutions to their
identified operation requirements. Selected solutions may be off-the-shelf or near-term
developmental items that can be available quickly to allow REF to continue rapidly
inserting new technology solutions that address the current battlefield issues of engaged
and deployed forces. REF is located at Fort Belvoir, Virginia.

Three of the 18 awards were made on behalf of the Combined Security Transition
Command – Afghanistan. This command is a North Atlantic Treaty Organization
command. It partners with the Afghan Ministry of Defense and Ministry of Interior to
develop capabilities of Afghan National Security Forces to generate, employ, and sustain
the force.

Two of the 18 awards were made on behalf of the Army Materiel Command. The Army
Materiel Command is the principal materiel developer of the Army. The Army Materiel
Command mission is complex and includes developing sophisticated weapon systems,
researching lasers, and maintaining and distributing spare parts. Headquartered in
Alexandria, Virginia, Army Materiel Command accomplishes its mission through
11 major subordinate commands that direct the activities of numerous depots, arsenals,
ammunition plants, laboratories, test activities, and procurement operations.

One of the 18 awards was made on behalf of the Threat Systems Management Office
(TSMO). TSMO provides realistic threat scenarios for operational testing and training
events. The scenarios use both ground and aviation foreign systems that are
reconfigurable to reflect the requirements and parameters for each specific testing and
training event. TSMO is located at Redstone Arsenal, Alabama.

Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses at the WSMR Army Contracting Activity, the Army RDECOM Acquisition

                                             2
Center, and the CECOM Acquisition Center. Contracting officials did not properly
compete contracts and task orders, did not perform sufficient price analysis, and did not
adequately justify the use of T&M contracts. Additionally, contractor oversight was
inadequate for several of the contracts and task orders that we reviewed. Contracting and
program officials awarded contracts and task orders without organizing surveillance
systems that placed contract oversight officials at the locations where the contractors
were working. As a result, oversight officials were not in a position to know if the
contractors were working efficiently or billing correctly. Implementing the
recommendations in Finding A and Finding B will improve contract award procedures,
improve contractor oversight, could result in potential monetary benefits for the
Government of $3,688,338, and will save substantial taxpayer dollars. We will provide a
copy of the report to the senior officials responsible for internal controls at these
organizations.




                                            3
Finding A. Contract and Task Order Award
Procedures
Army contracting officials did not award T&M contracts and task orders for Southwest
Asia requirements in accordance with acquisition regulations. We reviewed 7 contracts
and 11 task orders with a total value of $605,021,129.

The 18 contracts and task orders we reviewed were awarded by 3 contracting offices –
CECOM, RDECOM, and WSMR.

                         Table 1. Summary of Awards
               Contracting     # of Awards        Amount
                 Office
             CECOM                       2           $82,241,728
             RDECOM                      9          $466,834,777
             WSMR                        7           $55,944,624
                 Total                  18          $605,021,129

Contracting and program officials did not:

      properly compete 3 contracts and 7 task orders valued at $67,071,750 (officials
       either conducted unfair competitions or made sole-source awards without
       adequate justification);
      negotiate reasonable prices for 7 contracts and 10 task orders valued at
       $535,189,691; and
      justify their use of the T&M contract type, which is the contract type that exposes
       the Government to the most cost risk, for 5 contracts and 7 task orders valued at
       $566,686,352.

These conditions occurred because contracting and program officials ignored FAR
requirements. As a result, the Army did not have the opportunity to obtain cost savings
through competition and may have incurred additional costs by not negotiating
reasonable prices and by unnecessarily using the riskiest contract type.

Lack of Competition
Contracting and program officials did not properly compete 10 of the 18 contracts and
task orders reviewed, with a total value of $67,071,750. These officials made awards on
the basis of unfair competition or invalid sole-source justifications (see Table 2).




                                             4
  Table 2. Summary of Inadequate Competition and Invalid Sole Source Awards
     Contracting       Inadequate Competition        Invalid Sole Source
         Office       # of Awards   Amount       # of Awards       Amount
   CECOM                        0             -              0             -
   RDECOM                       5 $31,844,309                0             -
   WSMR                         0             -              5 $35,227,441
         Total                                                   $67,071,750

Army Contracting Agency, WSMR
The Army Contracting Agency at WSMR, New Mexico, awarded contracts and task
orders on a sole-source basis without adequate justification. For example, contracting
officials awarded task order W9124Q-06-F-1447 to Computer Sciences Corporation
(CSC) for $9.9 million on September 29, 2006, on behalf of the TSMO. The task order
was awarded from the CSC General Services Administration (GSA) contract. The task
order was for “operation, training, and maintenance of foreign aviation systems at Kabul
Afghanistan International Airport.”

Contracting officials made the award to CSC on a sole-source basis, citing FAR 8.405-
6(b)(1), “Only one source is capable of responding due to the unique or specialized
nature of the work.” The sole-source justification gave reasons that CSC was qualified to
do the work, but gave no specific reasons other contractors could not do the work. Thus,
the justification presented no evidence that CSC was the only capable source. The
justification also included an unexplained assertion that it would take 24 months and cost
$25 million for another contractor to acquire the skills needed to gain proficiency for this
effort. This assertion was shown to be false a year later, when CSC was forced to
compete for the follow-on contract and lost to Northrop Grumman.

Task order 1447 was 1 of 5 awards that showed a pattern of questionable sole-source
awards made by 4 contracting officers at WSMR. Task order 1447 was the fourth in a
succession of sole-source awards from 2003 to 2006. The original contract was awarded
to Research Analysis and Maintenance, Inc on July 31, 2003, for operation and
maintenance support services to be performed at Fort Bliss, Texas. The original contract
led to another sole-source contract to Research Analysis and Maintenance, Inc. in 2004,
which led to a sole-source contract to CSC in 2005 after Research Analysis and
Maintenance, Inc. was determined to be “non-responsible;” CSC was then awarded task
order 1447 in 2006. Contracting officials justified the first three awards on a sole-source
basis by citing urgency.

The nature of the work evolved dramatically, so much that the scope of work for task
order 1447 had little to do with the scope of the original award. Ultimately, the sole-
source justification for task order 1447, which was for specialized work in Kabul, was
based on a contract awarded 3 years earlier to a different contractor for work performed
in Texas. The sole-source justification was inadequate, and there was no legitimate
reason why task order 1447 could not have been competed.

                                             5
In another case, WSMR awarded two task orders to Exponent, Inc. (Exponent) on behalf
of REF. WSMR awarded task order W9124Q-06-F-1203 to Exponent on May 23, 2006,
for $3.3 million and awarded task order W9124Q-06-F-1204 1 day later for about
$900,000. Both task orders were awarded from Exponent’s GSA contract. Task order
1203 required Exponent to provide REF with engineering support, repair and
maintenance, logistical support, and management and administration. Exponent was to
provide support to U.S. Military Forces in identifying technological solutions to threats in
Iraq and Afghanistan. Task order 1204 required Exponent to provide REF with
engineering cell support. Both task orders had a period of performance of 10 months,
from June 1, 2006, to March 31, 2007.

Contracting and program officials awarded both task order 1203 and task order 1204 to
Exponent on a sole-source basis. The sole-source justifications were almost identical and
cited FAR 8.405-6(b)(4), “An urgent and compelling need exists, and following the
ordering procedures would result in unacceptable delays.” The orders were follow-on
orders to task order W9124Q-05-F-1123, which had been awarded to Exponent on a sole-
source basis 1 year earlier.

The sole-source justification for task orders 1203 and 1204 did not describe any specific
urgent requirement. It stated only that it would cost time (at least 16-20 weeks) to switch
contractors because of the logistical issues associated with awarding a competitive
contract, including “lead time to issue a solicitation, evaluate new suppliers, negotiate
terms, issue the award.”

The sole-source justification indicates a lack of planning. FAR 6.301(c) states
“Contracting without providing for full and open competition shall not be justified on the
basis of a lack of advance planning by the requiring activity.” With a properly planned
competition, contracting officials would have issued the solicitation and evaluated bids
for the new contract before the prior task order had expired.

Moreover, the sole-source justification was invalidated because it stated that the
10-month period of performance of task orders 1203 and 1204 would “ensure continued
support as well as provide adequate time for a competition to be conducted that will meet
future REF needs in the area of robotics engineering.” By making this statement,
contracting and program officials acknowledged that a 10-month period of performance
would allow time to plan a competitive award for the next contract. However, the task
order prior to orders 1203 and 1204 had a 1-year period of performance. If a 10-month
period of performance was adequate time to plan a competition for the next contract, then
a full year should have been enough time to plan a competition for task orders 1203 and
1204.


RDECOM Acquisition Center
As task orders 1203 and 1204 neared their completion in March 2007, problems
continued. REF decided to use the contracting office at RDECOM in Aberdeen Proving

                                             6
Ground, Maryland, to award the next task order to Exponent. Although the sole-source
justification for task orders 1203 and 1204 stated that the next award would be made
competitively, REF program officials and RDECOM contracting officials again planned
to make the award to Exponent on a sole-source basis. They prepared a sole-source
justification that was very similar to the justification for task orders 1203 and 1204.

However, this time, the sole-source Justification and Approval (J&A) was rejected by
RDECOM legal counsel. The legal counsel stated:

               The J&A is not convincing as to sole source. Most of document
               describes how wonderful incumbent is. Cost of transition is not a
               reason to go sole source. Schedule transition is not a reason to go sole
               source.

RDECOM legal counsel rejected the sole-source justification on March 1, 2007, which
was 1 month before the period of performance for task orders 1203 and 1204 was to end.
With a sole-source award no longer an option, contracting officials decided to conduct a
competitive award but also to ensure that the award would be made to Exponent by
April 1, 2007. They posted the solicitation for the new contract on the GSA E-Buy Web
site on March 14, 2007, and gave potential contractors 2 days to submit a bid. They sent
a copy of the solicitation only to Exponent. Naturally, Exponent was the only contractor
to submit a bid, thereby winning the “competition.” RDECOM then awarded contract
W91CRB-07-D-0013 to Exponent on April 1, 2007, for an estimated price of
$22 million.

Section 2304, Title 10, United States Code requires that contracts be awarded on the basis
of full and open competition unless a specific exception applies. FAR 5.203,
“Publicizing and Response Time,” states that the contracting officer must establish a
solicitation response time that will afford potential offerors a reasonable opportunity to
respond to each proposed contract action. Additionally, FAR 15.201(f) states that
contracting officers should avoid creating an unfair competitive advantage for
contractors. By conducting a competition that gave the incumbent an unfair competitive
advantage, RDECOM contracting officials circumvented the law.

Contracting Officers’ Responsibility
Contracting officers did not properly compete contracts and task orders primarily because
they did not follow the applicable regulations. FAR 6.101(a) states that “contracting
officers shall promote and provide for full and open competition in soliciting offers and
awarding Government contracts.” FAR 6.301(c) states that “Contracting without
providing for full and open competition shall not be justified on the basis of a lack of
advance planning by the requiring activity.” FAR 8.405-6(g) (2) (iv), which applies to
sole-source awards made from GSA schedule contracts, states that the sole-source
justification will include “a demonstration of the proposed contractor’s unique
qualifications to provide the required supply or service.”

Contracting officials should have been thoroughly familiar with the regulations. FAR
1.602-1(b) states “No contract shall be entered into unless the contracting officer ensures

                                                  7
that all requirements of law, executive orders, regulations, and all other applicable
procedures, including clearances and approvals, have been met.” Additionally, the
contracting officers we interviewed had a range of 2 to 15 years of experience as
contracting officers.

Contracting officials did not comply with the FAR. Contracting officials made sole-
source awards and conducted a competition with an unfair competitive advantage for
requirements that were considered “urgent,” but contracting and program officials had
known about these requirements long enough to plan fair competitions. Additionally,
contracting officials awarded a sole-source task order from a GSA schedule contract
because, according to them, the selected contractor was the only capable source, but they
provided no evidence that any effort was made to identify other contractors that could
perform the work.

Because contracting officials did not obtain open-market competition for these contracts
and task orders, they may not have selected the best contractors for the work and may
have spent money that could have been saved through price competition. The
commanders of WSMR and RDECOM should conduct a review of these contracts and
task orders and, if appropriate, take administrative or disciplinary action against the
responsible contracting officers.

Price Reasonableness Determinations
Contracting officials did not negotiate reasonable price ceilings when they awarded 17 of
the 18 contracts and task orders, valued at $535,189,691. As a result, contracting
officials had little assurance that the price ceilings were an accurate representation of
what the work should cost (see Table 3).

      Table 3. Summary of Inadequate Price Reasonableness Determinations
               Contracting       Inadequate Price Reasonableness
                 Office                  Determinations
                               # of Awards          Amount
            CECOM                        1             $12,410,290
            RDECOM                       9            $466,834,777
            WSMR                         7             $55,944,624
                  Total                 17            $535,189,691


Because most of the contracts and task orders were either awarded on a sole-source basis
or through a competition with an unfair competitive advantage, the contractors were not
submitting price proposals in a competitive environment. Therefore, the contractors had
an opportunity to overprice their proposals without fear of losing the award to another
contractor. As a result, contracting officers were required to analyze the proposals and, if
necessary, negotiate the prices to ensure that the prices they accepted were reasonable.


                                             8
Contracting officials did not adequately negotiate a reasonable price ceiling for 17 of the
18 contracts and task orders, with a total value of $535,189,691. In general, contracting
officials performed poor analyses of contractor labor rates and did limited analyses on
proposed labor hour quantities and the mix of labor categories.

Army Contracting Agency, WSMR
Ideal Innovations, Inc.
Contracting officials at WSMR awarded contract W9124Q-05-C-0534 to Ideal
Innovations, Inc. (Ideal Innovations) on April 1, 2005, for $8.2 million. Contracting
officials made a vague statement that the price was reasonable compared to a prior
contract, but provided no evidence to support this statement. Contracting officials also
stated that they determined that the proposed labor rates were reasonable by comparing
the rates to the general schedule pay rates of comparable Government employees and
applying overhead costs. Contracting officials prepared the following table.

                          Table 4. Schedule of Labor Rates
Labor Category                        Rate/Hour          Government Equivalent
Project Manager                       $129.92            GS-15 Step 10
Deputy Project Manager                $129.92            GS-15 Step 10
Architecture Subject Matter Expert 1 $227.59             SES – Level I
Architecture Subject Matter Expert 2 $202.30             None cited
Biometric Subject Matter Expert       $147.24            SES – Level II
Trainer/Operator                      $85.57             GS-13 Step 10
Outside the Continental United        $145.00            SES – Level II
States Manager
Info Archive Manager Bio System       $103.70            GS-14 Step 10
Bio System Engineer                   $88.40             GS-13 Step 10
Technology Subject Matter Expert      $227.57            None cited
Technology Science Advisor            $129.91            GS-15 Step 10
Database Manager                      $85.57             GS-15 Step 10
Sr. Intelligence Analyst              $119.98            GS-15 Step 9
Project Officer                       $119.98            GS-15 Step 9


This table did not ensure that the rates were reasonable. Contracting officials did not
explain how any of the specific labor categories were matched with a “Government
Equivalent” general schedule rate. Additionally, the Outside the Continental United
States (OCONUS) Manager rate of $145.00 per hour was compared to the SES – Level II
pay rate, while the far more expensive Architecture Subject Matter Expert 1 rate of
$227.59 per hour was compared to the SES – Level I pay rate. If $145.00 per hour was


                                             9
comparable to SES – Level II, then obviously someone making $227.59 per hour would
not be comparable to SES – Level I.

Additionally, the categories of Technology Subject Matter Expert and Architecture
Subject Matter Expert 2 were not matched to a Government Equivalent. Furthermore,
contracting officials did not analyze the individual cost elements (direct cost, indirect
costs, and profit) that comprise the full labor rates. Contracting officials could have
requested the Defense Contract Audit Agency to review the labor rates and their specific
cost elements.

Contracting officials also provided no explanation for why the proposed quantity of labor
hours was reasonable. The task order price was based on a total quantity of 55,260 labor
hours. The price reasonableness determination made no statement regarding whether this
was a reasonable quantity of hours or a reasonable mix of labor categories. Without a
determination that the quantity of labor hours is reasonable, the overall price cannot be
determined reasonable.

Finally, the task order price also included a “Travel/Materials” line item with an
estimated cost of $1.4 million. Contracting officials also provided no explanation as to
why this was a reasonable figure.

Contract 0534 was ultimately modified from $8.2 million to almost $10.0 million, as
additional work and funding were added.

CSC
Four of the awards we reviewed were task orders awarded from GSA schedule contracts.
According to FAR 8.404(d), prices on GSA contracts are considered reasonable.
However, GSA schedule contracts establish only direct labor rates. In order to evaluate
the overall price of an order, contracting officers need to analyze the selection of labor
categories and the quantity of labor hours.

For example, as previously discussed, contracting officials at WSMR awarded task order
W9124Q-06-F-1447 to CSC on a sole-source basis on September 29, 2006, with an
estimated price of $9.9 million. The $9.9 million included $7.8 million of labor costs and
$2.1 million of other direct costs. The price reasonableness determination stated that the
price was reasonable because “the proposed price is in accordance with GSA schedule
rates.” Again, there was no explanation for why the labor hours or other direct costs were
reasonable. Additionally, CSC added a 70 percent “danger & hardship” markup to its
OCONUS GSA rates because the work was to be performed in Afghanistan. The price
reasonableness determination did not provide an explanation for this 70 percent markup.
Contracting officials should have explained why 70 percent was an appropriate markup.

Additionally, like task order 0534 with Ideal Innovations, the price reasonableness
determination for task order 1447 included a vague statement that the overall price was
reasonable compared to a prior contract. This statement was not supported and was part
of a disturbing price analysis trend at WSMR. Although FAR 15.404-1(b) (2) (ii) does

                                            10
allow price reasonableness determinations to be made through comparisons to prior
contracts, WSMR inappropriately used this technique. Under FAR 15.404-1(b)(2)(ii), a
price comparison can only be used if both the validity of the comparison and the
reasonableness of the previous price can be established.

In this case,

       task order 1447 with CSC was considered reasonable based on a comparison to
        task order 0557 with CSC,
       task order 0557 was considered reasonable based on a comparison to contract
        0158 with Research Analysis and Maintenance Inc.,
       contract 0158 was considered reasonable based on a comparison to contract 0100
        with Research Analysis and Maintenance, Inc., and,
       contract 0100 had no price reasonableness determination in the file.

In summary, this price reasonableness “chain” began with contract DABK39-03-0100,
which was a 3-month, $3 million contract awarded to Research Analysis and
Maintenance, Inc. in 2003 for work performed in Texas. There was no record of how this
contract’s price was determined to be reasonable. This contract was ultimately used as
the basis for the price reasonableness determination for contract W9124Q-06-F-1447,
which was awarded 3 years later to a different contractor for work performed in
Afghanistan. This was not a legitimate method of price analysis.

Exponent
When contracting officials at WSMR awarded task orders W9124Q-06-F-1203 and
W9124Q-06-F-1204 to Exponent, they again stated that the overall prices were
reasonable simply because the labor rates came from Exponent’s GSA contract.
Contracting officials gave no explanation for why the proposed quantity of labor hours
was reasonable or for why the labor categories were appropriate.

RDECOM Acquisition Center
Exponent
As discussed earlier, contracting officials at RDECOM awarded the follow-on contract to
Exponent after a competition where Exponent had an unfair competitive advantage.
Therefore, Exponent did not prepare its price proposal in a legitimately competitive
environment. The follow-on contract was contract W91CRB-07-D-0013. The estimated
value at the time of award was $22.1 million; it was eventually increased to
$31.8 million. It was an indefinite-delivery, indefinite-quantity contract, which meant
that the contract established terms such as labor rates, and Exponent would perform work
under task orders awarded from the contract.

In this case, the contract did not actually establish firm T&M labor rates. It established
only the following labor rate ranges. The average rates charged on the invoices tended to
be in the middle area of the ranges (see Table 5 for the T&M labor categories and rates).


                                            11
                       Table 5. Schedule of Labor Rate Ranges
T&M Labor Categories                      Range Per Hour Average Rate Charged
Principal Engineer/Scientist              $220-$840         $301.67
Managing Engineer/Scientist (Senior)      $145-$331         $253.95
Managing Engineer/Scientist (Standard)    $145-$331         $227.70
Engineer/Scientist (Senior)               $85-$273          $182.92
Engineer/Scientist (Standard)             $85-$273          $161.22
Software Engineer/Developer (Senior)      $85-$273          $173.52
Software Engineer/Developer (Standard) $85-$273             $138.75
Technician                                $45-$147          $114.10
Non-Technical Support                     $25-$341          $89.50


The use of labor rate ranges violated FAR 16.601(a)(1), which states that T&M contracts
provide for acquisition of services on the basis of “direct labor hours at specified fixed
hourly rates.” The ranges for this contract came from Exponent’s GSA schedule
contract. The ranges were far too wide (as much as a $620 per hour range for the
Principal Engineer) to be considered reasonable for any given task order. Nonetheless,
contracting officials awarded three of the four task orders we reviewed without preparing
a price reasonableness determination. These were task orders 1, 4, and 18.

For task order 11, contracting officials prepared a “Fair and Reasonable Determination
and Best Value Determination” memorandum. This document stated “The labor
categories and rates proposed are in accordance with those already agreed-to per contract
W91CRB-07-D-0013 and therefore are considered fair and reasonable.” This price
reasonableness determination was totally inadequate, as the contracting officer could not
legitimately conclude that a labor rate is reasonable simply because it falls within a
$620 per hour range. The price reasonableness determination did not conform with the
proposal analysis techniques listed in FAR 15.404-1.

As a result, contracting officials did not make an adequate price reasonableness
determination for any of the four task orders we reviewed from contract W91CRB-07-D-
0013. The total value of these orders, including modifications, was $21.1 million.

MPRI
Contracting officials at RDECOM also awarded contract W91CRB-05-D-0014 to MPRI
on May 1, 2005. The contract originally had a 4-year period of performance, but it was
eventually extended by 6 months to October 31, 2009. The estimated value of the
contract at the time of award was $150 million, but it was ultimately modified to
$428.5 million. The contract was for advisory support and mentoring services for the
Afghanistan Defense Sector Development and Fielding Program.

This was another indefinite-delivery, indefinite-quantity contract, which meant that the
contract established labor rates, while work was actually paid for on task orders awarded
                                            12
from the contract. The contract award established nine labor categories. To determine
the reasonableness of the labor rates, contracting officials analyzed the most expensive
labor category (Program Manager - $124.51 per hour) and one other labor category
(Senior Trainer - $91.00 per hour). This was the extent of their analysis of the labor
rates. Contracting officials did not analyze the other seven labor categories. The seven
unanalyzed labor categories accounted for approximately 40 percent of the labor hours
worked.

Additionally, contracting officials’ analysis of the Senior Trainer labor rate did not
particularly support their conclusion that the rate was reasonable. They compared
MPRI’s rate of $91.00 per hour to another contractor that paid its Senior Trainers
$84.00 per hour. This means that MPRI’s rate was 8 percent higher than the rate the
contractor used for comparison.

Therefore, contracting officials did not demonstrate that eight of the nine labor rates were
reasonable when they awarded the contract. As a result, any task order awarded using
these labor rates did not have an adequate price reasonableness determination.

The same day contracting officials awarded the contract, they also awarded task order 1
from the contract. When task order 1 began, it included the nine labor categories
established when the contract was awarded. Task order 1 originally had a period of
performance of 1 year, from May 1, 2005, to April 30, 2006. However, it was modified
22 times as the period of performance was extended to October 31, 2009, making the
total period of performance 4 and a half years. The total price of task order 1 rose from
$26 million to $323 million. Because the labor rates were not properly analyzed, there is
no assurance that this price was reasonable at all.

The lack of sufficient analysis of the labor rates for this contract caused contracting
officials to overspend millions of dollars. To illustrate, contracting officials analyzed the
MPRI Senior Trainer rate of $91.00 per hour by comparing it to a rate that was $7 less
per hour. MPRI Senior Trainers worked an average of 26,500 hours per month for the
first 4 years of task order 1. If contracting officials had negotiated the proposed rate to
the rate used for comparison, the Government would have saved about $8.9 million on
this labor category alone (26,500 hours * $7 * 48 months). Again, Senior Trainer was
one of only two labor categories that contracting officials actually analyzed. We cannot
determine if the Army overspent on the other seven labor categories because they were
not analyzed.

As the task order progressed, several new labor categories were added. Some of the new
categories were re-classifications of the original categories that had not been sufficiently
analyzed when the contract was awarded. As a result, none of the new labor rates were
demonstrated to be reasonable. For example, within 1 year after task order 1 was
awarded, several of the Senior Trainers were promoted to a new job titled “Section
Chief” and received an 18.4 percent raise. Because the Senior Trainer rate was not
shown to be reasonable, neither the Section Chief rate nor the 18.4 percent raise could be
shown to be reasonable.

                                             13
Additionally, contracting officials allowed unsupported increases to the labor rates during
the performance of task order. For example, for the second year of the task order,
contracting officials allowed an 8.8 percent rate increase for the labor category
Continental United States (CONUS) Logistics Support. Contracting officials stated that
the increase was reasonable because the contractor originally proposed a 22.2 percent
increase and, by negotiating it to 8.8 percent, they had achieved “savings.” Negotiating
the increase down partially from the original offer does not mean that the negotiated
increase is reasonable if the original offer was excessively high.

Also, contracting officials allowed MPRI to escalate its labor rates higher than MPRI
initially proposed. When contract W91CRB-05-D-0014 was awarded, MPRI and
contracting officials agreed that the labor rates would escalate at 3.5 percent annually.
However, contracting officials allowed the rates to increase at an overall average of
5.84 percent annually. Task order 1 was for 4 and a half years and included the original
nine labor categories. Because the rates were allowed to escalate at an average of
5.84 percent annually, the Government spent an extra $7.8 million total on the task order
during years 2, 3, and 4.

Contracting Officers’ Responsibilities
Contracting officers did not follow the FAR criteria regarding price reasonableness
determinations. FAR 15.402, “Pricing policy,” requires contracting officers to “Purchase
supplies and services from responsible sources at fair and reasonable prices.”
FAR 15.404, “Proposal analysis,” describes several proposal analysis techniques that can
be used to evaluate price reasonableness.

For the contracts and task orders that we reviewed, the contracting officials did not
adequately perform their responsibilities. Contracting officials awarded contracts and
task orders after performing a limited, insufficient price analysis that did not ensure that
the price was reasonable. As a result, the Government may have overpaid for services or
paid unreasonably high prices.

Justifying the Use of T&M Contracts
Contracting officials did not adequately justify their use of the T&M contract type for
12 of the 18 contracts and task orders reviewed, with a total value of $566,686,352 (see
Table 6).

   Table 6. Summary of Awards Made Without Adequate Justification for T&M
              Contracting         Inadequate T&M Justification
                Office        # of Awards        Amount
            CECOM                       2            $82,241,728
            RDECOM                      3           $428,500,000
            WSMR                        7            $55,944,624
                Totals                 12           $566,686,352

                                             14
T&M contracts are the riskiest contract type for the Government. FAR 16.601(a) defines
a T&M contract as a contract that “provides for acquiring supplies or services on the
basis of (1) Direct labor hours at specified fixed hourly rates that include wages,
overhead, general and administrative expenses, and profit; and (2) Materials at cost,
including, if appropriate, material handling costs as part of material costs.”

Because profit is included in the hourly labor rate, the contractor earns profit for every
additional hour worked. Thus, T&M contracts provide no incentive to the contractor for
cost control or labor efficiency. FAR 16.601(b) requires that a T&M contract be used
only when it is not possible at the time of award to accurately estimate the extent or
duration of the work or to anticipate costs with any reasonable degree of certainty.
Therefore, a T&M contract may be used only after the contracting officer executes a
D&F that no other contract type is suitable.

Of the 18 contracts and task orders we reviewed, 6 had an adequate D&F for using a
T&M contract. Eight did not have a D&F, and the other four had an inadequate D&F.
Thus, based on our review, contracting officials did not do an adequate job of justifying
their use of T&M contracts. Other contract types, such as cost-plus-fixed-fee or cost-
plus-award-fee, can be used when the duration and cost of the work is unknown. While
these contract types do reimburse contractors for their incurred costs, they do not provide
additional profit for each additional hour worked.

Some of the D&Fs that were prepared just quoted the FAR criteria for when a
T&M contract is appropriate, but these D&Fs did not give an explanation for why those
contracts or task orders met the criteria. When preparing a D&F, contracting officials
should specifically explain why the work to be performed is appropriate for a
T&M contract. This will help ensure that they do not use a T&M contract when a less
risky contract type would be more appropriate.

In one example, contracting officials at CECOM awarded task order W909MY-05-F-
0045 to Logistics Solutions Group for $3 million. The task order file included a D&F for
using a T&M contract, but the D&F cited a different contract number. The D&F was so
vague that we could not determine from reading it whether it was actually meant for a
different contract or if this was just a typographical error.

Contracting officials did not follow the FAR criteria regarding justification for using
T&M contracts. FAR 16.601(c)(1) states that a T&M contract may only be used if “The
contracting officer prepares a determination and findings that no other contract type is
suitable.” Contracting officials either did not prepare these D&Fs or prepared D&Fs that
did not sufficiently justify that a T&M contract was appropriate. As a result, the
Government was at a higher risk of excessive cost growth on these contracts and task
orders.

It is also noteworthy that several of the contracts and task orders that we reviewed were
follow-on awards to earlier contracts and task orders. Three of the awards had at least
four predecessor contracts or task orders. Contracting officials could have tried to use the

                                            15
knowledge obtained from the earlier contracts and task orders to define the requirements
well enough to use a less risky contract type on the new contracts and task orders. In the
future, contracting officials should consider transitioning from the T&M contract type as
knowledge is gained about the required work.

The 8 contracting officers we interviewed had an average of 7.5 years (ranging from 2 to
15) of experience as contracting officers. Therefore, they should have been
knowledgeable enough about the FAR to prevent the problems discussed in this report.

Conclusion
The primary benefit of contracting is to enable DOD to obtain superior products and
services at reasonable prices through open-market competition. When competition is
eliminated, much of the benefit is lost. Army contracting officials neglected to properly
compete T&M contracts for Southwest Asia, and they did not obtain the best value as a
result. Contracting officials also did not negotiate reasonable prices.

Contracting and program officials need to properly plan competitive procurements so that
they can obtain the best services at the best prices. Sole-source contracts should be the
exception, not the norm. If an incumbent contractor truly will provide the best value to
the Government, then that contractor should be able to win an open competition anyway.
DOD can ensure that incumbent contractors continue to provide their best services and
prices by making the incumbent contractors earn their contract awards in a competitive
environment. If a different contractor can provide better services and prices than an
incumbent, the other contractor should be allowed to compete for the award.

When competition is not possible, contracting officials must perform appropriate analysis
to ensure that all elements of the negotiated price are reasonable. Analysis should not be
limited to a contractor’s labor rates. Contracting officials should also ensure that the
appropriate labor categories are used. In a sole-source situation, there is nothing to stop a
contractor from, for example, proposing a Senior Analyst when the work could be
performed by a Junior Analyst who costs half as much money. Contracting officials also
need to ensure that the contractor has proposed a reasonable number of labor hours and
reasonable other direct costs, such as travel and material costs.

Army contracting officials also exposed the Army to greater risk of monetary loss by not
properly justifying the use of the riskiest contract type. Contracting officials need to do a
better job of justifying their use of T&M contracts. In particular, they should explain
why they cannot use cost reimbursable or firm-fixed-price type contracts, which are less
risky. Cost reimbursable contracts can also be used when the duration and scope of the
work is uncertain, but cost reimbursable contracts do not reward the contractor with
additional profit for additional incurred costs, as T&M contracts do.

When preparing a D&F for a T&M contract, contracting officials need to thoroughly
explain why the extent and cost of the work are uncertain enough to require a T&M
contract. The D&F should not be treated merely as a formality that just restates the FAR
criteria for when a T&M contract is appropriate without explaining why that specific

                                             16
contract meets those criteria. If contracting officials cannot sufficiently explain why the
contract meets the criteria, then a different contract type should be used.

Due to the consistency and the severity of the contracting improprieties made by the
contracting officials, we are making the following recommendations.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Executive Director, Army Contracting Command:

       a. Perform a review of the contracts and task orders discussed in this report
(see Appendix C for a list of the contracts and task orders). The review should focus
on contracting officers’ compliance with competition requirements, price
reasonableness determinations, and justifications for the use of the time-and-
materials contract type.

      b. If appropriate, initiate administrative action on the contracting officers
who awarded the contracts and task orders.

Army Contracting Command Comments
The Army Contracting Command Deputy Director agreed. The Deputy Director stated
that the actions would be completed by the second quarter of 2011.

Our Response
The Deputy Director’s comments were responsive. No additional comments are
required.

Communications and Electronics Command Acquisition
Comments
The CECOM Acquisition Center Executive Director submitted comments related to
Recommendation A.1.a. The Executive Director addressed our conclusion that the
contracting officer’s price reasonableness determination for task order W909MY-05-F-
0045 was inadequate. The Executive Director agreed with our conclusion but stated that
it was an isolated oversight, not a systemic problem. The Executive Director also
addressed the justification for using the T&M contract type on task orders 0240 and
W909MY-05-F-0045. He agreed that the contracting officer had failed to prepare a D&F
for using the T&M contract type for task order 0240. He stated that a D&F for task order
W909MY-05-F-0045 was prepared, but the contracting officer failed to sign it and
include it in the contract file. He stated that all future T&M contracts and task orders will
include a detailed justification for the contract type.

Our Response
The CECOM Acquisition Center comments are responsive. No additional comments are
required.


                                             17
A.2. We recommend that the Executive Director, Army Contracting Command
establish a written plan to review the invoices for the 18 contracts and task orders
(see Appendix C for a list of the contracts and task orders); request the Defense
Contract Audit Agency’s assistance in reviewing invoices for allowable, allocable,
and reasonable costs; obtain reimbursements for incorrect charges; and report the
amounts reimbursed on a periodic basis to the DoD Inspector General as part of the
follow-up process.

Army Contracting Command Comments
The Army Contracting Command Deputy Director agreed. The Deputy Director stated
that the actions would be completed by the second quarter of 2011.

Our Response
The Deputy Director’s comments are responsive. No additional comments are required.

Communications and Electronics Command Acquisition Center
Comments
The CECOM Acquisition Center Executive Director partially agreed. The Executive
Director affirmed that CECOM requested a DCAA audit of task order 0240. However,
the Executive Director stated that the DCAA – Hampton Roads, Virginia, office declined
to audit the invoices for task order W909MY-05-F-0045 because this task order was from
a GSA schedule contract.

Our Response
The Executive Director’s comments are partially responsive. We spoke with DCAA
Headquarters personnel, and they informed us that DCAA has authority to audit a DoD
task order from a GSA contract if the task order was paid for with DoD funds. Task
order W909MY-05-F-0045 was awarded by the CECOM Acquisition Center and paid for
with DoD funds. Therefore, the CECOM Acquisition Center should again request that
DCAA review the invoices from this task order for allowable, allocable, and reasonable
costs. No further comments are required.




                                         18
Finding B. Contract Oversight
Army contracting and program officials did not sufficiently monitor contractor
performance for T&M contracts and task orders performed in Southwest Asia. We
reviewed 18 contracts and task orders valued at $605,021,129, which were awarded on
behalf of 4 customers. Surveillance was inadequately performed on all 18 task orders
and contracts we reviewed. Specifically, Army contracting officials and DOD program
officials:

      did not verify the accuracy of contractor invoices,
      did not place enough oversight officials in the country where the work was
       performed,
      did not have an adequate filing system to maintain surveillance documentation,
      did not develop Quality Assurance Surveillance Plans (QASP) outlining what
       surveillance would be performed, and
      allowed unauthorized labor rate increases and other unallowable costs on
       contracts and task orders.

These conditions occurred because of inadequate organization and planning by the Army
officials responsible for contract oversight. Further, contracting and program officials
did not properly designate qualified contracting officer’s representatives (CORs) to
ensure that work was performed effectively and efficiently for 10 of the 18 contracts and
task orders we reviewed. As a result, the Government did not have assurance that
contractors worked efficiently or that contractor invoices for work performed were
accurate.

Criteria
T&M contracts are risky to the Government because there is no incentive to contractors
to control costs or labor efficiency. FAR 16.601(a) defines a T&M contract as a contract
that “provides for acquiring supplies or services on the basis of (1) Direct labor hours at
specified fixed hourly rates that include wages, overhead, general and administrative
expenses, and profit; and (2) Materials at cost, including, if appropriate, material handling
costs as part of material costs.” On a T&M contract or task order, the Government
reimburses the contractor based on actual cost of materials and direct labor hours at
specified fixed hourly rates that include wages, indirect costs, and profit. This type of
contract or task order does not encourage efficient contractor performance because the
contractor gets reimbursed for all incurred costs plus a profit based on those costs.
Therefore, appropriate Government oversight, or contract surveillance, is required to
provide reasonable assurance that efficient methods and effective cost controls are used
throughout the life of the contract or task order.

FAR 46.101, “Definitions,” defines Government contract quality assurance as “the
various functions, including inspection, performed by the Government to determine
whether a contractor has fulfilled the contract obligations pertaining to quality and
quantity.” One way to ensure quality assurance is to develop a QASP. FAR 46.401

                                             19
states that these plans should specify all work requiring surveillance and the method of
surveillance. It also requires the Government to conduct quality assurance to ensure the
contractor is performing in accordance with the statement of work. In addition DFARS
Subpart 201.6, “Contracting Authority and Responsibilities,” requires contracting officers
to assign in writing a qualified representative to assist in monitoring the administration
and technical aspects of the contract. Surveillance of contractor performance and cost is
essential to protect the interests of the Government.

FAR 37.1, “Service Contracts – General,” prescribes the policies and procedures for the
acquisition and management of services by contract. Specifically, FAR 37.102(f) states,
“Agencies shall establish effective management practices. . .to prevent fraud, waste, and
abuse in service contracting.” FAR 37.102 also states, “(g) Services are to be obtained in
the most cost-effective manner, without barriers to competition. . .” and “(h) Agencies
shall ensure that sufficiently trained and experienced officials are available within the
agency to manage and oversee the contract administration function.”

DFARS 201.602-2, “Responsibilities,” states that the COR:

               (i) Must be a Government employee, unless otherwise authorized in
               agency regulations; (ii) Must be qualified by training and experience
               commensurate with the responsibilities to be delegated in accordance
               with department/agency guidelines; (iii) May not be delegated
               responsibility to perform functions at a contractor's location that have
               been delegated under FAR 42.202(a) to a contract administration
               office; (iv) Has no authority to make any commitments or changes that
               affect price, quality, quantity, delivery, or other terms and conditions of
               the contract; and (v) Must be designated in writing, and a copy
               furnished the contractor and the contract administration office— (A)
               Specifying the extent of the COR's authority to act on behalf of the
               contracting officer; (B) Identifying the limitations on the COR's
               authority; (C) Specifying the period covered by the designation; (D)
               Stating the authority is not redelegable; and (E) Stating that the COR
               may be personally liable for unauthorized acts.



Contracts and Task Orders Reviewed
We reviewed 18 T&M contracts and task orders from 4 different commands and
customers with a total value of $605,021,129 (see Table 7).




                                                  20
                 Table 7. Summary of Contract Actions Reviewed
         Customer            No. of Task   Contracting         Amount
                             Orders and       Office
                              Contracts
   Rapid Equipping Force               12   WSMR &               $75,579,401
                                            RDECOM
    Combined Security                   3   RDECOM              $428,500,000
   Transition Command –
        Afghanistan
      Threat Systems                    1     WSMR               $18,700,000
    Management Office
  Army Materiel Command                 2    CECOM               $82,241,728
            Total                      18                       $605,021,129


Surveillance Issues
Contracting and program officials did not perform sufficient surveillance on any of the
18 contracts and task orders we reviewed. Specifically, Army contracting officials and
DOD program officials did not check and review contractor invoices, did not place
enough oversight officials where the work was performed, did not have an adequate filing
system to maintain surveillance documentation, did not prepare QASPs, and permitted
unauthorized labor rate increases on two contracts and task orders.

Invoices
Army contracting officials and DOD program officials did not verify the accuracy of
contractor invoices for any of the task orders and contracts we reviewed valued at
$605,021,129. This occurred because contracting officials did not properly assign
CORs, and program officials were not located in a position to properly monitor the
progress of the work on the contracts and task orders.

For instance, WSMR awarded contract W9124Q-05-C-0534, valued at $9,974,600, on
April 1, 2005, to Ideal Innovations. Additionally, 1 month later, WSMR awarded
contract W9124Q-05-C-0250, valued at $11,292,922, to Ideal Innovations. Both
contracts were awarded on behalf of REF in support of the Biometric Identification
System for Access project. Neither contract had a designated COR.

With no CORs assigned to either contract, REF had several different officials review and
approve the Ideal Innovations invoices for each month. These officials were all located
in Fort Belvoir, Virginia, while the work was performed in Iraq. These officials were not
in a position to know if the invoices accurately represented the work performed. Some of
Ideal Innovations employees billed up to 372 hours per month, so it was necessary for
REF to have adequate surveillance in place to ensure that the invoices were accurate.



                                           21
Some Ideal Innovations employees worked on both contracts. For example, for the
month of August 2005, one individual billed more than 100 hours to each contract. The
invoices were reviewed by different REF officials, thus it is unlikely that they would
have detected any possible double-billing. If REF had assigned an in-country COR to
monitor the contracts, REF would have been in a far better position to verify that the
work was properly performed and that the invoices were accurate.

It is imperative for contract surveillance officials to be able to verify the invoice labor
hours for T&M contracts. T&M contracts allow the contractor to charge a fixed profit for
every labor hour that is worked. The contractor has no incentive for cost control or labor
efficiency. Therefore, it is important for contractor surveillance officials to review
contractor invoices for accuracy and sufficient cost breakdowns. The invoices should be
reviewed by officials who observe the work and are knowledgeable about the contract
and its progress. DOD officials, for all 18 task orders and contracts, were unable to
adequately review the invoices because the CORs and other personnel who approved the
invoices were not located near where the work was being performed.

Oversight Officials
Contracting and program officials did not designate a COR at the time of award for 10 of
the 18 contracts and task orders. Contracting and program officials also did not place
enough oversight officials in the country where the work was being performed.
Contracting and program officials should make an effort to place CORs at the location of
contractor performance to ensure that the contractor is carrying out the duties and
functions that are required of them efficiently and effectively. If placing a COR at the
location of contractor performance is not feasible, the COR still needs to coordinate his
or her surveillance efforts with other surveillance officials who are at the location of the
performance. Without onsite surveillance, it is difficult for the Government to have
assurance that the contractor completes its work in accordance with contract requirements
or that the contractor invoices are accurate.

For example, Combined Security Transition Command – Afghanistan was the customer
for one indefinite-delivery, indefinite-quantity contract (W91CRB-05-D-0014) and two
task orders awarded from it (task orders 1 and 8) that we reviewed with a total value of
$428,500,000. The contract and the two task orders were awarded by RDECOM. The
contract was awarded to MPRI to assist the Afghanistan Government in security
institutions, policies, programs, and procedures.

Contracting and program officials had not planned and organized a sufficient contractor
surveillance structure. Specifically, the contracting officer’s technical representative
(COTR) in Afghanistan attempted to conduct significant oversight, but he was impeded
by other program and contracting officials. In January 2006, the COTR stated that he
would not approve an invoice because he wanted an explanation for $27,000 spent on
office supplies and $2,000 spent on “non-labor costs.” MPRI refused to provide
supporting documentation. As a result, contracting officials and other program officials
decided to “take the COTR out of the approval process” and pay the invoice anyway.
The contracting officer stated that the COTR was taking too long to approve the invoices.

                                            22
They decided that future invoices would be paid unless they were significantly different
from the contract. Contracting and program officials decided to rely on a Defense
Contract Audit Agency closeout audit after the contract was complete to ensure that the
invoices were accurate.

A Defense Contract Audit Agency closeout audit is not sufficient to ensure invoice
accuracy on a contract of this magnitude. The contract has a value of over $428 million
and is being performed in several locations in Afghanistan. Also, as this is a T&M
contract, the specific work requirements are uncertain. An onsite COTR who monitors
the contract on a continual basis is in a far better position to ensure that invoice charges
are accurate and allowable than Defense Contract Audit Agency auditors who review the
invoices after the contract ends.

In another example, WSMR awarded two task orders on behalf of REF to Exponent.
These task orders were W9124Q-06-F-1203 and W9124Q-06-F-1204. They were
awarded in May 2006 and had a total value of $4,439,532. The task orders were for
various engineering support functions. Like the Ideal Innovations contracts discussed
previously, these task orders did not have a COR, and the invoices were reviewed and
approved by various officials at Fort Belvoir who were not in a position to know if the
invoices were accurate. We interviewed a REF official who was stationed in Afghanistan
who oversaw Exponent’s work on a regular basis. He said that he was never asked to
review Exponent’s invoices, but that he could have done so if he had been assigned that
responsibility. This individual, or someone in a similar position, should have been
assigned as the COR because he was in a good position to monitor contractor work and
verify that the invoices were accurate.

A COR has been assigned to the follow-on contract with Exponent, contract W91CRB-
07-D-0013. The official is located in Fort Belvoir, Virginia. He stated that he has had
numerous problems with the invoices for the contract, and he stated that he believes that
the contract needs “a complete and thorough review and audit.”

Surveillance Documentation
Contracting and program officials did not have an adequate system to maintain
surveillance documentation for 12 of the 18 task orders and contracts, valued at
$94,279,401. REF was the customer for 11 of these 12 task orders and contracts, and the
Threat Systems Management Office was the customer for the other task order. The filing
systems were generally inadequate, were consistently missing invoices, and contained
very little other surveillance documentation because of a high rate of employee turnover
and a lack of properly trained CORs. It is necessary for surveillance officials to maintain
surveillance documentation so that other surveillance officials will have access to all
pertinent information, such as any problems the contractor has had in the past. This will
allow future surveillance officials to perform better oversight.

To illustrate, RDECOM awarded task order 4 from contract W91CRB-07-D-0013 to
Exponent on March 31, 2008. The COR did not follow the QASP for the contract. The
QASP stated that “surveillance will be accomplished on a continual and random basis.

                                             23
The method used for evaluation will be based on schedules, reports, observation,
customer feedback, adherence to proposed costs, and review of deliverables.” The QASP
further stated the COR is also responsible for maintaining surveillance logs to record
information on observations and any noted defects found.

The REF file for task order 4 did not include any of the documentation required by the
QASP. It did not include schedules, reports, documentation of observation, customer
feedback, reviews of deliverables, or any surveillance logs. Thus, there was no
documentation to show that work was performed efficiently or if it was in accordance
with the Statement of Work. The lack of surveillance documentation will make
contractor surveillance more difficult for future CORs and other surveillance officials.
This is especially problematic because of the high turnover rate of CORs and COTRs in
Southwest Asia.

QASPs
Contracting officials did not prepare QASPs for the 12 of the 18 contracts and task orders
we reviewed. FAR 46.103, “Contracting Officer Responsibilities,” states, “Contracting
offices are responsible for-(a) Receiving from the activity responsible for technical
requirements any specifications for inspection, testing, and other contract quality
requirements essential to ensure the integrity of the supplies and services.” For services,
the activity responsible for technical requirements is also responsible for creating a
QASP.

Labor Rate Increases
Contracting and program officials also allowed unauthorized labor rate increases on two
contracts and task orders, valued at $88,531,437. As a result, the Army overpaid at least
$330,107 for the services it received. For example, the Army Material Command was the
customer for task order 0240 from contract DAAB07-03-D-B0009. The task order was
awarded on August 25, 2006, to Lockheed Martin Integrated Systems, Inc. and had a total
value of $69,831,437.

This task order contained discrepancies in three labor categories. The first labor category
was Systems Analyst. The task order included the category “Systems Analyst Level 2,”
at a rate of $42.90 per hour. However, the invoices included 4203.5 hours that were
charged to “Systems Analyst Level 3,” at a rate of $47.03, for a total of $197,690, while
Systems Analyst Level 3 was not an authorized labor category on the task order. Since
Systems Analyst Level 3 was not an allowable labor category, the 4203.5 hours should
have been charged at the Systems Analyst Level 2 rate of $42.90. The total amount
charged should have been $180,330. This is an overcharge to the Government of
$17,360. The contracting officer should review this situation to determine whether this
work could have been performed by a Systems Analyst Level 2.

The second labor category with a discrepancy was “Analyst Level 1.” Many of the
individuals in this labor category charged a rate of $77.68 for Option Year 1. However,
the task order stated that all employees in this labor category would charge a rate of


                                            24
$62.93 for Option Year 1. A total of 4,390 hours were invoiced for this labor category at
the higher rate. Therefore, the Government overpaid for the labor by a total of $64,752.

The third labor category was “Proj Mgr/Task Ldr2 Contractor.” The rate invoiced was
$97.34, but the rate listed in the task order was $80.64. A total of 1,269.7 hours were
invoiced for this labor category. If the $80.64 rate had been used, then the Government
would have saved a total of $21,204. In total, the three labor category discrepancies on
this task order caused the Government to overpay a total of $103,316. The contracting
officer should review these discrepancies and obtain a refund if warranted.

Task Order W9124Q-06-F-1447
One task order encompasses all the previously discussed surveillance problems. WSMR
awarded task order W9124Q-06-F-1447 on behalf of TSMO to CSC on September 29,
2006. The task order had a 2-year period of performance and a total value of
$18,700,000. The task order required CSC to provide operation, training, and
maintenance of foreign aviation systems at Kabul Afghanistan International Airport.
TSMO was the customer and was responsible for performing surveillance functions for
this task order. The task order included additional work that CSC was to perform in
Alabama, and as a result, the task order included both CONUS and OCONUS work.

Surveillance was poorly planned by TSMO and the contracting officials at WSMR in
New Mexico. When the task order was awarded, no CORs were officially assigned by
the contracting officer. One individual, located in Alabama, was designated by the task
order as the “TSMO Government POC [point of contact],” and he functioned as the
CONUS COR for the task order. No OCONUS CORs were sent to Afghanistan to
monitor the OCONUS work until March 14, 2007, which was almost 6 months into the
task order’s 1-year performance period. As a result, contract oversight was nonexistent,
and the work performed was not verified as required during the first half of the task
order. No invoices were even prepared by the contractor during this period.

On March 14, 2007, TSMO sent a primary OCONUS COR to Afghanistan, along with an
alternate OCONUS COR. The primary OCONUS COR was in Afghanistan through the
end of May 2007, and he was replaced by another primary OCONUS COR in August
2007. This second primary OCONUS COR remained in Afghanistan through the end of
the task order performance period.

Even after the OCONUS CORs arrived in Afghanistan, problems with invoices persisted.
The first primary OCONUS COR stated that CSC submitted invoices to him, but the
invoices were very inaccurate and did not represent the work that was actually performed.
He refused to approve any invoices until they were corrected. However, at the time he
departed Afghanistan in May 2007, CSC had still not provided him with an acceptable
invoice.

An invoice was finally approved on August 31, 2007. This invoice covered the period of
September 29, 2006, to June 29, 2007, a period of 9 months. The invoice was for
$8,253,561. It was approved by the CONUS COR in Alabama, who stated “I have

                                           25
reviewed CSC invoice BVN001 and believe to the best of my ability that the cost are
accurate.” Regarding this invoice, the CONUS COR told us, “There was great confusion
over who was the COR responsible for the oversight of the contractor at the time. The
KO [contracting officer] had assigned a COR and two ACOR’s [alternate CORs] all with
exactly the same duties.”

The Government had very little assurance that this invoice was accurate. There was no
OCONUS COR monitoring the contractor for the first 6 months, and the invoice was
approved by the CONUS COR in Alabama who was not in a position to know if the
OCONUS charges were accurate. Furthermore, the OCONUS COR refused to certify the
invoices prior to his departure because they were inaccurate.

Ultimately, TSMO and WSMR approved and paid five invoices certified by three
different program officials for task order W9124Q-06-F-1447. Some of the invoices had
overlapping performance periods, as two of them covered the full 1-year performance
period of the task order:

BVN0001:    $8,253,561 (9/26/06 - 6/29/07)
BVN0002:    $2,156,643 (6/30/07 - 8/24/07)
BVN0003:    $4,407,452 (8/25/07 - 9/28/07)
BVN9004:    $3,747,089 (9/29/06 - 9/30/07)
BVN9005:    $135,255 (9/29/06 - 9/30/07)

The total of the five invoices was $18,700,000, which is the exact amount of money that
had been funded to the task order.

The fact that TSMO did not require CSC to prepare separate invoices for the CONUS and
OCONUS charges exacerbated problems. This made it more difficult for all of the
various CORs to review them. As previously stated, WSMR paid Invoice BVN0001
after it was approved by the CONUS COR. WSMR paid Invoices BVN0002 and
BVN0003 after the alternate OCONUS COR “concurred” with them. However, we
spoke with the alternate OCONUS COR, and he told us that he intended to verify only
that the OCONUS labor charges were accurate. He did not intend to certify the entire
vouchers for payment.

Invoices BVN9004 and BVN9005 were reviewed by the second primary OCONUS COR,
who arrived in Afghanistan in August 2007. However, he was only there for the last
2 months of the task order, and these two invoices covered the full year. This second
primary OCONUS COR told us that he had difficulty working with the WSMR
contracting office. The contracting officials never provided him with a COR
appointment letter or a list of the CSC labor rates. He also said that he had not been
trained on how to review invoices. He said that he did approve Invoice BVN9005, which
was for a relatively small charge of $135,255. He also signed Invoice BVN9004, and
contracting officials paid it as a result.




                                             26
However, he informed us that although he signed this invoice, he did not intend to
approve it for payment. He told us:

               I went down to Huntsville and sat in a meeting with CSC, TSMO, and
               two representatives from White Sands Missile Range. They all assured
               me I did not need to worry about the individual labor charge, but the
               end state that Mi17 helicopters were maintained and operated in Kabul
               Afghanistan.

In summary, there is virtually no assurance that the invoices were accurate. Given all of
the confusion surrounding the task order between the various CORs, it is clear that the
dollar amounts of the final two invoices were simply calculated to make the total invoice
charges equal the total dollar amount that had been funded to the task order. These
invoices included $7,760 in labor charges from October and November of 2007, which
should not have been allowable because they were after the task order performance
period had ended.

CSC was allowed to improperly raise its OCONUS labor rates. When CSC submitted its
price proposal for the task order, CSC used its Year 5 GSA schedule labor rates. CSC
used the Year 5 rates to compute the total task order price and called them the “billable
rates.” This price proposal was accepted, and these rates became the contracted rates for
this task order. Thus, the Year 5 GSA schedule rates should have been in effect for the
entirety of the task order. The task order was awarded on September 29, 2006. The CSC
GSA schedule has a yearly cycle of February 4 to February 3 of the following year. After
February 3, 2007, CSC raised its OCONUS billing rates on task order 1447 to match its
Year 6 GSA schedule rates. There was no modification to the task order to authorize this
increase. Because CSC contracted to use the Year 5 GSA rates for the entirety of task
order 1447, contracting officials should not have allowed them to increase the rates. As a
result of this rate increase, the Army overspent roughly $226,791 on the task order.

We also spoke with the Officer in Charge of the program, and he informed us about other
problems with the task order. He said that with 4 months left in performance period,
CSC mistakenly believed that they had lost the follow-on competition to DYNCORP.
DYNCORP had actually won a competition for different work. As a result of this
mistake, CSC awarded a subcontract to DYNCORP to transition the work to them. Later,
when CSC realized that they had not lost the re-compete of this work, they were now in a
situation where they had a competitor working for them on a subcontract. This created a
conflict of interest. CSC then forced the DYNCORP employees to sit around and do no
work, but CSC still had to pay them because they were on a subcontract. DYNCORP’s
labor charges were ultimately paid by the Government, so the Government paid
DYNCORP employees who were doing nothing. More than $3.35 million was paid to
DYNCORP employees on this task order.

Due to the conflict of interest, DYNCORP was unable to bid on the follow-on
competition to this task order, and CSC had to exclude its knowledgeable employees in
Afghanistan from the bidding process. Northrop Grumman won the contract and then
subcontracted the work to DYNCORP.

                                                27
On this task order, a lack of planning by WSMR and TSMO led to poor contract
oversight. The Government had almost no assurance that it received the services it paid
for. Not surprisingly, most of the surveillance officials we interviewed were displeased
with CSC’s performance on this task order. WSMR should review this task order and
obtain any refunds that are due as a result of the conditions discussed in this section.

Potential Monetary Benefits
If contracting officials obtain the refunds previously discussed for task order 0240 from
contract DAAB07-03-D-B0009 and task order W9124Q-06-F-1447, the Government
could receive potential monetary benefits of up to $3,688,338. This consists of:

      unauthorized labor rate increases resulting in $103,316 of overpayments on task
       order 0240 from contract DAAB07-03-D-B0009,
      unauthorized labor rate increases resulting in $226,791 of overpayments on task
       order W9124Q-06-F-1447,
      payments of $3,350,471 for subcontractor employees who may not have been
       doing any work on task order W9124Q-06-F-1447, and
      payments of $7,760 for work performed after the period of performance had
       expired on task order W9124Q-06-F-1447.

Conclusion
T&M contracts for work performed in Southwest Asia are among the riskiest contracts
awarded by the Government. Because a fixed profit is built into every labor hour
worked, contractors have no financial incentive to control costs. The location of the work
makes monitoring contractor performance far more difficult than for contracts within the
United States or other more stable areas around the world.

Therefore, contracting and program officials need to improve their planning and
organization of contractor surveillance efforts. Contracting officials should assign a
properly trained COR when the contract is awarded. The COR preferably should be
located in the country where the work is performed. At the very least, the COR should
have a contract oversight structure in place to allow the COR to obtain reasonable
assurance that the contractor performs in accordance with contract requirements, works
efficiently, and prepares accurate invoices. If it is not feasible for the COR to be located
near the place of contractor performance, then the COR should coordinate his/her efforts
with other surveillance officials who are located at the place of performance. Invoices
should be reviewed and verified by surveillance officials who are in a position to know if
the invoices are accurate. The COR should maintain documentation of surveillance
efforts so that knowledge and lessons learned are passed on to other CORs.




                                             28
Recommendations, Management Comments, and Our
Response

B.1. We recommend that for contracts awarded for work in Southwest Asia, the
Executive Director, Army Contracting Command:

       a. Appoint a contracting officer’s representative who has the qualifications
outlined in the Defense Federal Acquisition Regulation Supplement at the time of
award of contracts and task orders and prepare a detailed Quality Assurance
Surveillance Plan outlining what oversight is required and how it will be performed.

Army Contracting Command Comments
The Army Contracting Command Deputy Director partially agreed. The Deputy Director
stated that in March 2010 the Army Contracting Command issued Army Contracting
Command Pamphlet 70-1, “Interim Army Contracting Command - Contracting Officer’s
Representative Policy Guide,” which already covered procedures for appointing properly
trained CORs. The Deputy Director noted that the pamphlet did not address QASPs
because the DFARS addresses QASP requirements.

Our Response
The Deputy Director’s comments are partially responsive. Despite the DFARS QASP
guidance, 12 of the 18 contracts and task orders we reviewed were awarded without a
QASP. Thus, the Army Contracting Command needs to take steps to ensure that existing
guidance is followed and that contracts awarded for work in Southwest Asia include a
QASP. We request that the Army Contracting Command provide additional comments in
response to the final report.

       b. Appoint a contracting officer’s representative who will be located where
the work will be performed, when possible. At a minimum, contractor invoices
should be reviewed by a surveillance official who is in a position to know if the
invoices are accurate.

Army Contracting Command Comments
The Army Contracting Command Deputy Director partially agreed. The Deputy Director
stated that the March 2010 pamphlet does not require that the COR be located where the
work is performed and that this is at the discretion of the contracting activity, considering
the complexity of the contract requirements and type of contract. The Deputy Director
stated that a qualified and trained COR would be able to review the contractor invoices
and assess their accuracy.

Our Response
The Deputy Director’s comments are partially responsive. It is not effective for invoices
for work performed in Afghanistan or other locations in Southwest Asia to be reviewed
and approved by CORs located in the continental United States. These CORs are not in a

                                             29
good position to know if the invoices are accurate or not. For an example of the
problems and confusion that can occur when surveillance officials are not located where
the work is performed, see the discussion of task order W9124Q-06-F-1447 on page 25
of the report. Additionally, our recommendation did not state that a COR absolutely must
be located in the country where the work is performed; we stated “at a minimum,
contractor invoices should be reviewed by a surveillance official who is in a position to
know if the invoices are accurate.” If it is not feasible for a COR to be located where the
work is performed, then the invoices should be reviewed by another surveillance official
who is located where the work is performed. We request that the Army Contracting
Command provide additional comments in response to the final report.

       c. Require contracting officer’s representatives to organize and maintain
contractor oversight documentation so that oversight documentation will be
available to other surveillance officials.

Army Contracting Command Comments
The Deputy Director partially agreed. The Deputy Director stated that the March 2010
pamphlet provided guidance on maintaining comprehensive COR files. The Deputy
Director stated that the pamphlet included guidance on the content of COR files and that
it also provided guidance on physical performance checks by Army Contracting
Command contracting activities and on COR file reviews by the contracting officer.

Our Response
The Deputy Director’s comments are partially responsive. The Deputy Director did not
address that oversight documentation needs to be maintained so that oversight
documentation will be available to other surveillance officials. Although we commend
the Army Contracting Command for issuing guidance on the content of COR files, the
Army Contracting Command needs to ensure that oversight documentation will be
available to successor surveillance officials who are assigned to follow-on contracts. We
request that the Army Contracting Command provide additional comments in response to
the final report.

B.2. We recommend that the Director of Contracting, White Sands Missile Range,
review task order W9124Q-06-F-1447 and request a refund for:

         a. Unauthorized increases in Outside the Continental United States labor
rates.

      b. Payments made for subcontractor employees who were not actually
working.

      c. Payments made for work performed after the task order period of
performance had expired.

         d. Any other invoice discrepancies.


                                            30
Army Contracting Command Comments
The Army Contracting Command Deputy Director responded on behalf of the Director of
Contracting of White Sands Missile Range. The Deputy Director agreed. The Deputy
Director stated that the Mission and Installation Contracting Command would pursue a
refund for overpayments on the task order by August 16, 2010.

Our Response
The Deputy Director’s comments are responsive. No further comments are required.

B.3. We recommend that the Executive Director, Army Communications and
Electronics Command Acquisition Center, review task order 0240 from contract
DAAB07-03-D-B0009 with Lockheed Martin Integrated Systems, Inc. and request a
refund of $103,316 from the contractor for overpayments resulting from incorrect
billing rates on the invoices.

Army Contracting Command Comments
The Army Contracting Command Deputy Director responded on behalf of the Executive
Director of the CECOM Acquisition Center. The Deputy Director partially agreed. The
Deputy Director stated that it appeared a refund might be necessary for two of the three
labor categories discussed in the report, and that the contracting officer would investigate
those two categories to determine if a refund is due.

The Deputy Director did not agree with us on the third labor category, Systems Analyst.
We stated in the draft report that the task order included the category Systems Analyst
Level 2, at a rate of $42.90 per hour. We reported that the contractor billed 7,115 hours
for the category Systems Analyst Level 3, at a rate of $47.03 per hour. We stated, that
because the task order did not include the category Systems Analyst Level 3, the
Government was entitled to a refund of the difference between the two labor categories:
$29,385 ([$47.03 - $42.90] * 7115 hours).

The Deputy Director disagreed that the labor category Systems Analyst Level 3 was not
included in the task order. He stated that it was added to the order on modification 50
(which was issued on April 21, 2008); and therefore, no refund was required.

Our Response
The Deputy Director’s comments are partially responsive. Although the Deputy Director
is correct that Systems Analyst Level 3 was added on modification 50, several of the
invoices that included charges for Systems Analyst Level 3 were for work performed
before the issuance of modification 50. A total of 4,203.5 hours were billed to the
category Systems Analyst Level 3 before modification 50 was issued. Therefore, the
Government may be entitled to a refund for this labor category of $17,360 (instead of
$29,385, as we had originally reported). We request that CECOM Acquisition Center
provide additional comments in response to the final report.




                                             31
Appendix A. Scope and Methodology
We conducted this performance audit from December 2008 through May 2010 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

As mentioned in the “Background” section of this report, this is the first of 2 reports
addressing T&M contracts for work performed in Southwest Asia. Originally, we
intended to write one report. However, when determining which contracts and task
orders to review, we identified only one Air Force site and several Army sites. In
addition, during our Air Force site visit, we determined that contracting officials awarded
those task orders for Architect and Engineering services, which have different award
procedures than other types of contracts and task orders. Army contracting officials did
not use Architect and Engineering award procedures for the contracts and task orders we
reviewed. To make these distinctions clear, we separated the Air Force and Army
findings into two audit projects.

For this report, we reviewed the award procedures and administration of 18 contracts or
task orders and interviewed contracting and program personnel involved in the process.
Each task order or contract had documentation related to the pre-award process and
administration that had to be analyzed. In some instances, to comply with the audit
objectives, we had to review prior contracts or task orders which were not part of our
scope, because the contract action we audited referred to a previous contract or task
order. In addition, as part of this audit, we analyzed hundreds of invoices. This analysis
included comparing each labor category and rate to the categories and rates approved in
the task order. In addition, we interviewed DoD personnel assigned oversight duties. For
some of the orders, this required contacting multiple people assigned to oversight
responsibilities because those personnel were assigned in short increments and then
rotated out with new personnel replacing them. We expended time tracking these
rotating personnel to their current assignment.

Overall Audit Scope
We used two database systems to identify the scope for the audit—the Federal
Procurement Data System and the Electronic Document Access System. The Federal
Procurement Data System is used to collect data about Government procurements. The
DOD IG Data Mining Division input data from the Federal Procurement Data System
into a database, which the audit team used to run queries. The queries identified contract
actions awarded in FY 2007 and FY 2008 that were T&M with work performed in Iraq or
Afghanistan. We used the information gathered from the Federal Procurement Data
System to search the Electronic Document Access system. The Electronic Document
Access system is an online document access system designed to provide acquisition
related information for use by all of DOD. The Electronic Document Access system
provides copies of the actual contract or task order so we used the system to identify the

                                            32
original and current value of the contracts and task orders we had identified through our
queries of the Federal Procurement Data System.

Using the Federal Procurement Data System, we identified 258 contract actions issued in
FY 2007 and 2008 with a total obligated amount of $658.5 million. These 258 contract
actions consisted of contracts, task orders, and modifications. The 258 contract actions
represented 58 contracts or task orders.

We eliminated all contract actions related to contract F34601-97-D-0425 because of a
separate, ongoing audit. The DOD IG issued DOD IG Report No. D-2010-047, “Repair
and Maintenance Contracts for Aircraft Supporting Coalition Forces in Afghanistan, Iraq,
and Kuwait,” discussing that contract on March 26, 2010. Excluding those contract
actions, 166 contract actions remained related to 51 contracts or task orders with a total
obligated amount of $202.1 million. We used the Electronic Document Access system to
identify the amount of those contracts and task orders at the end of CY 2008. At the end
of CY 2008, the 51 contracts or task orders had a value of $976.6 million.

We selected contracts and task orders that had a product or service code that was in the
“Support Services – Professional, Administrative & Management” category or with
values of at least $10 million to review. These criteria reduced our scope to 26 contracts
or task orders with a value of $929 million, which is 95.1 percent of the value of the
51 contracts or task orders previously identified.

Of the 26 contract actions with a value of $929 million, we judgmentally selected to
review 14 contracts or task orders with a value of $254.7 million. We chose these
contracts and task orders based on the type of work being performed, the number of
contracts and task orders at that site, and the location of the site. We added an additional
contract to review at one of the sites. Therefore, we selected 15 contracts or task orders
with a total value of $261.2 million awarded by 4 contracting offices to review. Of these
15 contracts and task orders, the Army awarded 11 of them, valued at $170.0 million.

Army Scope
In addition to the 11 Army T&M contracts and task orders we initially selected, we
identified and reviewed 5 additional T&M task orders and 2 additional T&M contracts as
a result of our site visits and in conjunction with interviews of contracting and program
officials. Thus, we reviewed a total of 18 contracts and task orders awarded by the
Army. The total value of the 18 contracts and task orders was $605,021,129. Ten of the
awards were sole source, and the other 8 were competitive.

Army Methodology
We conducted site visits to WSMR, New Mexico; Headquarters Army Materiel
Command, Virginia; CECOM, Virginia; REF, Virginia; and RDECOM, Maryland.
During these visits, we reviewed contract documentation and interviewed contracting and
program officials responsible for contract award and administration. We conducted
follow-up correspondence over telephone and e-mail.


                                             33
We reviewed 7 contracts and 11 task order files to determine whether:
       Army contracting officials complied with competition requirements,
       Army contracting officials paid fair and reasonable prices for products and
         services,
       Army contracting officials adequately justified the use of a T&M type
         contract with a D&F in accordance with FAR 16.601(c),
       Army contracting officials created an acquisition plan if required by
         DFARS 207.1, and
       DOD program officials conducted sufficient contract oversight to ensure that
         contractors efficiently completed their requirements and prepared accurate
         invoices.

Use of Computer-Processed Data
We used computer-processed data from two different databases to indentify contracts and
task orders to review. We used the Federal Procurement Data System with support from
the DOD Office of the Inspector General Data Mining Division in order to obtain queries
to determine procurements issued in FY 2007 and FY 2008. We used the information
from the Federal Procurement Data System queries in conjunction with the Electronic
Document Access system to obtain contract and task order documentation. We used the
two systems to identify T&M contracts for professional services.

We did not perform a reliability assessment of the computer-processed data as the results
did not materially affect the findings, conclusions, or recommendations of the audit
report. We used the data only to identify which orders to review, and once the orders
matched our search criteria, we used only the documentation from the contract files to
support our findings and recommendations.




                                           34
Appendix B. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DOD Inspector
General (IG), Army Audit Agency, Air Force Audit Agency, Special Inspector General
for Iraq Reconstruction, and the Special Inspector General for Afghanistan
Reconstruction have issued 23 reports discussing T&M contracts, Southwest Asia, and
Government contract oversight issues. Unrestricted GAO reports can be accessed over
the Internet at http://www.gao.gov. Unrestricted DOD IG reports can be accessed at
http://www.DODig.mil/audit/reports.

Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/.

Naval Audit Service reports are not available over the Internet.

Air Force Audit Agency reports can be accessed from .mil domains over the Internet at
https://afkm.wpafb.af.mil/ASPs/CoP/OpenCoP.asp?Filter=OO-AD-01-41 by those with
Common Access Cards.

Special Inspector General for Iraq Reconstruction (SIGIR) unrestricted reports can be
accessed over the Internet at http://www.sigir.mil/Default.aspx.

Special Inspector General for Afghanistan Reconstruction (SIGAR) unrestricted reports
can be accessed over the Internet at http://www.sigar.mil/Default.aspx.


GAO
GAO Report No. 09-579, “Contract Management: Minimal Compliance with New
Safeguards for Time-and-Materials Contracts for Commercial Services and Safeguards
Have Not Been Applied to GSA Schedules Program,” June 24, 2009

GAO Report No. 09-643T, “Defense Acquisitions: Actions Needed to Ensure Value for
Service Contracts,” April 23, 2009

GAO Report No. 08-269, “Defense Contracting: Contract Risk a Key Factor in Assessing
Excessive Pass-Through Charges,” January 25, 2008

GAO Report No. 07-273, “Defense Contracting: Improved Insight and Controls Needed
over DOD’s Time-and-Materials Contracts,” June 29, 2007

GAO Report No.06-838R, “Contract Management: DOD Vulnerabilities to Contracting
Fraud, Waste, and Abuse,” July 2006

GAO Report No. 05-274, “Contract Management: Opportunities to Improve Surveillance
on Department of Defense Service Contracts,” March 17, 2005

                                            35
DOD IG
DOD IG Report No. D-2010-078, “Air Force Use of Time and Materials Contracts in
Southwest Asia,” August 16, 2010

DOD IG Report No. D-2009-109, “Contracts Supporting the DOD Counter
Narcoterrorism Technology Program Office,” September 25, 2009

DOD IG Report No. D-2009-096, “Contracts for the U.S. Army’s Heavy-Lift VI Program
in Kuwait,” July 28, 2009

DOD IG Report No. D-2009-007, “Procurement and Use of Nontactical Vehicles at
Bagram Air Field, Afghanistan,” October 31, 2008

DOD IG Report No. D-2008-097, “Hurricane Relief Effort Costs on the Navy
Construction Capabilities Contract,” May 23, 2008

DOD IG Report No. D-2007-036, “Contracting Practices at the Major Range and Test
Facilities Base,” December 27, 2006

DOD IG Report No. D-2006-061, “Acquisition: Source Selection Procedures for the
Navy Construction Capabilities Contract,” March 3, 2006

DOD IG Report No. D-2006-010, “Acquisition: Contract Surveillance for Service
Contracts,” October 28, 2005

DOD IG Report No. D-2006-007, “Acquisition: Contracts Awarded to Assist the Global
War on Terrorism by the U.S. Army Corps of Engineers,” October 14, 2005

Army
Army Report No. A-2006-0091-ALL, “Audit of Management of the Theater
Transportation Mission (Task Order 88), Audit of Logistics Civil Augmentation Program
Operations in Support of Operation Iraqi Freedom,” April 4, 2006

Army Report No. A-2006-0083-ALL, “Audit of Retrograde Operations (Task Order 87),
Audit of Logistics Civil Augmentation Program Operations in Support of Operation Iraqi
Freedom,” March 21, 2006

Air Force
Air Force Report No. F2008-0004-FC1000, “Competition in Multiple Award Service
Contracts,” April 3, 2008

Air Force Report No. F2008-0001-FC1000, “Management and Oversight of the
Acquisition of Services Process,” October 1, 2007




                                          36
SIGIR
SIGIR Report No. 09-017, “Need To Enhance Oversight of Theater-Wide Internal
Security Services Contracts,” April 24, 2009

SIGIR Report No. 07-001, “Logistics Civil Augmentation Program Task Order 130:
Requirements Validation, Government Oversight, and Contractor Performance,” June 22,
2007

SIGIR Report No. 05-023, “Management of Rapid Regional Response Program Contracts
in South-Central Iraq,” January 23, 2006

SIGIR Report No. 05-007, “Administration of Iraq Relief and Reconstruction Fund
Contract Files,” April 30, 2005

SIGAR
SIGAR Report No. 09-1, “Contract Oversight Capabilities of the Defense Department’s
Combined Security Transition Command-Afghanistan (CSTC-A) Need Strengthening,”
May 19, 2009




                                         37
Appendix C. Contracting Issues Identified

                            Inadequate
  Order                                                Inadequate      Inadequate
               Amount        D&F for     Inadequate                                 Inadequate
 Number                                                Sole Source        Price
                              T&M        Competition                                Surveillance
                                                       Justification    Analysis
                             Contracts

 CECOM

DAAB07-03-
 D-B0009     $69,831,438                                                                 
  (0240)

W909MY-05-   $12,410,290                                                                
  F-00451

 RDECOM

W91CRB-07-   $31,844,309                                                                
  D-0013

W91CRB-07-
  D-0013      $6,950,381                                                                
(TO 0001*)

W91CRB-07-
  D-0013      $5,318,049                                                                
(TO 0004*)

W91CRB-07-
  D-0013      $7,239,914                                                                
(TO 0011*)

W91CRB-07-
  D-0013      $1,557,200                                                                
(TO 0018*)

W91CRB-05-   $428,500,000                                                               
  D-0014
W91CRB-05-
  D-0014     $322,722,369                                                               
(TO 0001*)
W91CRB-05-
  D-0014     $32,082,773                                                                
(TO 0008*)
W91CRB-07-
              $6,490,469                                                                 
  P-0227



                                         38
Appendix C. Contracting Issues Identified
(con’t)

                                  Inadequate
  Order                                                            Inadequate      Inadequate
                   Amount          D&F for       Inadequate                                        Inadequate
 Number                                                            Sole Source        Price
                                    T&M          Competition                                       Surveillance
                                                                   Justification    Analysis
                                   Contracts

  WSMR

W9124Q-06-       $2,113,309                                                                           
 C-0111

W9124Q-06-       $9,424,260                                                                            
 C-0128

W9124Q-06-       $11,292,922                                                                           
 C-0250

W9124Q-05-       $9,974,601                                                                           
 C-0534

W9124Q-06-       $3,419,786                                                                           
 F-12031

W9124Q-06-       $1,019,745                                                                           
 F-12041

W9124Q-06-       $18,700,000                                                                          
 F-14471

   Total        $605,021,1292



1. GSA Federal Supply Schedule task order.

2. This value does not include the value of the task orders (those with *) we reviewed from contracts
W91CRB-05-D-0014 and W91CRB-07-D-0013. We reviewed the basic contracts from which these task
orders were awarded, so to include the value of the task orders from these contracts would have been
double-counting.




                                                  39
Army Materiel Command Comments




                 Click to add JPEG file




                                40
Army Contracting Command Comments




                 Click to add JPEG file




                                41
Click to add JPEG file




               42
Click to add JPEG file




               43
Click to add JPEG file




               44
Mission and Installation Contracting Command Comments




                               45
Click to add JPEG file




               46
Communications and Electronics Command Comments




                 Click to add JPEG file




                                47
Click to add JPEG file




               48
Click to add JPEG file




               49
                           Final Report
                            Reference




Click to add JPEG file




                         We adjusted the
                         dollar amount of
                         the suggested
                         refund based on
                         this response.




               50
Click to add JPEG file




               51
